David B. Salmons

Partner
+1.202.373.6283
david.salmons@morganlewis.com

January 14, 2021
BY ELECTRONIC FILING AND ELECTRONIC MAIL
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Amazon.com, Inc. v. Rittmann
No. 20-622

Dear Mr. Harris:
In accordance with the Court’s March 19, 2020 order, petitioners Amazon.com,
Inc. and Amazon Logistics, Inc. respectfully request that distribution of the certiorari filings in this case be delayed for 7 days, from January 27, 2021 to February 3, 2021.
Because of difficulties relating to COVID-19, petitioners’ counsel need additional time to file a reply in support of the petition for a writ of certiorari. The
pandemic has displaced counsel from their offices and complicated coordination
among counsel and the petitioners.
Respondents’ counsel advises that respondents do not object to this request.
Sincerely,
/s/ David B. Salmons
DAVID B. SALMONS
cc: Shannon Liss-Riordan
Harold Lichten
Adelaide H. Pagano

Morgan, Lewis & Bockius
1111 Pennsylvania Avenue, NW
Washington, DC 20004
United States

LLP

+1.202.739.3000
+1.202.739.3001

